                                  Department of the Interior
                                  Office of Inspector General



                  AUDIT REPORT




                      U.S. Fish and Wildlife Service
                   Wildlife and Sport Fish Restoration
                       Program Grants Awarded to
           the State of Alaska, Department of Fish and Game,
                from July 1, 2004 Through June 30, 2006




Report No. R-GR-FWS-0007-2007                         June 2008
                United States Department of the Interior
                             OFFICE OF INSPECTOR GENERAL
                             12030 Sunrise Valley Drive, Suite 230
                                     Reston, VA 20191
                                                                                   June 23, 2008

                                      AUDIT REPORT
Memorandum

To:        Director
           U.S. Fish and Wildlife Service

From:      Christina M. Bruner
           Regional Manager, Eastern Region

Subject:   Audit on U.S. Fish and Wildlife Service Wildlife and Sport Fish Restoration Program
           Grants Awarded to the State of Alaska, Department of Fish and Game, from July 1,
           2004 Through June 30, 2006 (No. R-GR-FWS-0007-2007)

        This report presents the results of our audit of costs incurred by the State of Alaska
(State), Department of Fish and Game (Department), under grants awarded by the U.S. Fish and
Wildlife Service (FWS). FWS provided the grants to the State under the Wildlife and Sport Fish
Restoration Program (the Program). The audit included claims totaling approximately $71.8
million on 56 grants that were open during State fiscal years (SFYs) ended June 30 of 2005 and
2006 (see Appendix 1). The audit also covered Department compliance with applicable laws,
regulations, and FWS guidelines, including those related to the collection and use of hunting and
fishing license revenues and the reporting of program income.

       We found that the Department complied, in general, with applicable grant accounting and
regulatory requirements. However, we questioned costs totaling $61,677 for out-of-period
expenses.

        We provided a Notification of Potential Finding and Recommendation on the questioned
costs to FWS and the Department for a response. In their responses, FWS and the Department
concurred with the recommendations and the Department took action to implement them. We
summarize the Department and FWS Region 7 responses and the actions taken by the
Department. We determined that the actions taken were sufficient to classify the
recommendations as resolved and implemented. No other response to this audit report is
necessary. We list the status of each recommendation in Appendix 3.

      If you have any questions regarding this report, please contact the audit team leader, Mr.
Tim Horsma, or me at 703–487–5345.

cc:   Regional Director, Region 7, U.S. Fish and Wildlife Service
                                               Introduction
Background

The Pittman-Robertson Wildlife Restoration Act and the Dingell-Johnson Sport Fish Restoration
Act (Acts)1 established the Wildlife and Sport Fish Restoration Program. Under the Program,
FWS provides grants to States to restore, conserve, manage, and enhance their sport fish and
wildlife resources. The Acts and federal regulations contain provisions and principles on eligible
costs and allow FWS to reimburse States up to 75 percent of the eligible costs incurred under the
grants. The Acts also require that hunting and fishing license revenues be used only for the
administration of the State’s fish and game agency. Finally, federal regulations and FWS
guidance require States to account for any income they earn using grant funds.

Objectives

Our audit objectives were to determine if the Department:

      •    claimed the costs incurred under the Program grants in accordance with the Acts and
           related regulations, FWS guidelines, and the grant agreements;

      •    used State hunting and fishing license revenues solely for fish and wildlife program
           activities; and

      •    reported and used program income in accordance with federal regulations.

Scope

Audit work included claims totaling approximately $71.8 million on the 56 grants that were
open during SFYs 2005 and 2006 (see Appendix 1). We report only on those conditions that
existed during this audit period. We performed our audit at Juneau, AK, and visited four area
offices and six boating access sites (see Appendix 2). We performed this audit to supplement,
not replace, the audits required by the Single Audit Act Amendment of 1996 and by Office of
Management and Budget Circular A-133.

Methodology

We performed our audit in accordance with the “Government Auditing Standards” issued by the
Comptroller General of the United States. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We tested records and conducted auditing procedures

1
    16 U.S.C. §§ 669 and 777, as amended, respectively.

                                                          2
as necessary under the circumstances. We believe that the evidence obtained from our tests and
procedures provides a reasonable basis for our findings and conclusions based on our audit
objectives.

Our tests and procedures included:

   •   examining the evidence that supports selected expenditures charged to the grants by the
       Department;

   •   reviewing transactions related to purchases, direct costs, drawdowns of reimbursements,
       in-kind contributions, and program income;

   •   interviewing Departmental employees to ensure that personnel costs charged to the grants
       were supportable;

   •   conducting site visits to inspect equipment and other property;

   •   determining whether the Department used hunting and fishing license revenues solely for
       administration of the Department; and

   •   determining whether the State passed required legislation assenting to the provisions of
       the Acts.

We also identified the internal controls over transactions recorded in the labor and license fee
accounting systems and tested their operation and reliability. Based on the results of initial
assessments, we assigned a level of risk to these systems and selected a judgmental sample of
transactions recorded in these systems for testing. We did not project the results of the tests to
the total population of recorded transactions or evaluate the economy, efficiency, or effectiveness
of Department operations.

Prior Audit Coverage
On July 9, 2004, we issued “Audit Report on the U.S. Fish and Wildlife Service Federal
Assistance Grants Administered by the State of Alaska, Department of Fish and Game, from
July1, 2000 through June 30, 2002” (R-GR-FWS-0017-2003). We followed up on all
recommendations in the report and found that the Department of Interior, Office of the Assistant
Secretary for Policy, Management and Budget considered them to be resolved and implemented.

We reviewed the State of Alaska’s Single Audit Reports for SFYs 2005 and 2006, which were
issued by the State’s Division of Legislative Audit. The FWS Wildlife and Sport Fish
Restoration Program was audited as a major program in SFY2006 but not in SFY2005. The
audits did not contain findings related to the Department’s administration of the Program.




                                                3
                                    Results of Audit
Audit Summary
We found that the Department complied, in general, with applicable grant agreement provisions
and requirements of the Acts, regulations, and FWS guidance. However, we identified
questioned costs totaling $61,677 (federal share). We discuss this finding in more detail below.

Finding and Recommendations
A.     Questioned Costs — $61,677

       The Department improperly charged $82,235 ($82,235 x 75 percent = $61,677 federal
       share) to Grant F-32-14, which was for sport fisheries enhancement and development.
       These costs were incurred prior to the start of the grant period, which began July 1, 2004
       and were related to the construction of a fish hatchery in Region 3 (Fairbanks).

       Under 43 C.F.R. § 12.63(a), grantees may only charge a grant for costs that were
       obligated during the grant period, when the grant specifies a funding period.
       According to Department officials, the error was an oversight attributable to staff
       transition during this period. As a result of the out-of-period charges, the costs charged
       to Grant F-32-14 were overstated and the costs charged to the prior grant with the same
       objectives (F-32-13) were understated.

       Recommendations

       We recommend that FWS:

       1. resolve the $61,677 of questioned costs charged to Grant F-32-14 and

       2. require the Department to ensure that grant costs claimed are limited to costs
          incurred within the grant period.

       Department Response

       Department officials concurred with the recommendations. They addressed the
       questioned costs by offsetting them with indirect costs that they incurred under the grants
       but did not claim or receive reimbursement for. Officials also stated that although they
       believe that the controls currently in place generally ensure that charges are correctly
       recorded, they acknowledge that errors occasionally do occur. They issued a policy
       memorandum on the subject and will make every effort to adequately train staff and
       strengthen and improve controls to prevent and detect errors such as out-of-period costs.



                                                4
FWS Response

FWS regional and headquarters officials concurred with the recommendations and agreed
to the actions taken by the Department to resolve and implement both recommendations.

OIG Comments

Based on the FWS and Departments’ responses and the actions taken, we consider the
recommendations to be resolved and implemented.




                                      5
                                                                Appendix 1
                                                                     Page 1 of 2

                         STATE OF ALASKA
                  DEPARTMENT OF FISH AND GAME
             FINANCIAL SUMMARY OF REVIEW COVERAGE
               FROM JULY 1, 2004 THROUGH JUNE 30, 2006

                                                Questioned Costs
                                                 (Federal Share)
    Grant          Grant         Claimed       Cost
   Number         Amount          Costs      Exceptions      Total
F-10-20          $13,995,885   $13,231,034
F-10-21           14,410,755    14,396,837
F-13-C-14            470,571       385,325
F-13-C-15            381,500       323,742
F-13-D-54            705,000       479,600
F-13-D-56            670,000       668,644
F-13-D-58            200,000       178,497
F-13-D-59            200,000       174,912
F-13-D-80          2,800,000     1,986,970
F-13-D-93             90,000        15,951
F-13-D-94            150,000       138,666
F-13-D-97            150,000        32,316
F-13-D-99             40,000        12,494
F-13-D-102            40,000             0
F-13-D-103            60,000        39,421
F-13-D-104           150,000       150,000
F-13-D-105           100,000             0
F-13-D-106           900,000       834,930
F-13-D-107           450,000       450,000
F-13-D-108            21,000        21,000
F-13-D-109           425,650       349,582
F-13-D-110         2,112,000        84,431
F-13-D-111           120,000       119,129
F-13-D-112         1,800,000       422,177
F-13-D-113           150,000        29,566
F-13-D-114            15,000        15,000
F-13-D-115           200,000         3,770
F-13-D-116           165,000        62,159




                                  6
                                                            Appendix 1
                                                                 Page 2 of 2

                    STATE OF ALASKA
             DEPARTMENT OF FISH AND GAME
        FINANCIAL SUMMARY OF REVIEW COVERAGE
             FROM JULY 1, 2004 THROUGH JUNE 30, 2006


                                            Questioned Costs
                                            (Federal Share)
   Grant        Grant       Claimed        Cost
 Number        Amount         Costs      Exceptions     Total
F-13-D-117        68,000         2,156
F-13-D-118       800,000             0
F-13-D-119        50,000        20,893
F-13-D-120       250,000             0
F-13-D-121        10,000        10,000
F-13-D-122        80,000        30,500
F-13-D-123       100,000        82,316
F-13-D-124       100,000             0
F-13-L-29        200,000       191,067
F-13-L-30         80,000        66,000
F-13-L-31         75,000         6,250
F-13-L-32        353,375         9,690
F-13-M-34        368,762       353,785
F-13-M-35        241,642       241,642
F-13-M-36        419,300       410,190
F-13-M-37        287,400       257,996
F-31-16          721,955       721,955
F-31-17          760,791       726,863
F-32-14        3,566,905     3,495,182     $61,677     $61,677
F-32-15        3,811,103     3,712,973
F-39-D-1               0             0
W-31-D-1       1,500,000     1,500,000
W-32-E-4         106,700       105,500
W-32-E-5         106,667       106,666
W-33-3        12,054,161    12,052,706
W-33-4        12,148,829    12,148,829
W-34-E-2         405,040       405,040
W-34-E-3         510,369       510,369
TOTALS       $80,148,360   $71,774,721     $61,677     $61,677


                               7
                                    Appendix 2


      STATE OF ALASKA
DEPARTMENT OF FISH AND GAME
        SITES VISITED

          Headquarters

          Juneau, Alaska


           Area Offices

            Dillingham
              Homer
           King Salmon
             Kodiak


      Boating /Access Sites

    Anton Larsen Boat Launch
 Buskin River Coho Weir and Cabin
           Homer Harbor
          Lake Aleknagik
   Longmere Lake Boat Launch
        Pilliars Boat Launch




                8
                                                                            Appendix 3


                  ALASKA DEPARTMENT OF FISH AND GAME
              STATUS OF AUDIT FINDINGS AND RECOMMENDATIONS


Recommendations                      Status                         Actions Required
A.1 and A.2        FWS management concurs with the               No additional action is
                   recommendations and provided                  required.
                   documentation to support the resolution and
                   implementation of these recommendations.




                                      9
  Report Fraud, Waste, Abuse,
     and Mismanagement
          Fraud, waste, and abuse in government
          concerns everyone: Office of Inspector
          General staff, Departmental employees,
            and the general public. We actively
          solicit allegations of any inefficient and
            wasteful practices, fraud, and abuse
          related to Departmental or Insular Area
         programs and operations. You can report
              allegations to us in several ways.




By Mail:          U.S. Department of the Interior
                  Office of Inspector General
                  Mail Stop 5341 MIB
                  1849 C Street, NW
                  Washington, D.C. 20240

By Phone          24-Hour Toll Free               800-424-5081
                  Washington Metro Area           703-487-5435

By Fax            703-487-5402

By Internet       www.doioig.gov/hotline
